                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDLTM

 Case Number: I04070027
                                                                                11           Page 1 of 1



         This case was opened as a result of notification from a university1 of an internal audit that
         revealed that a Principal Investigator ( ~ 1had
                                                      ) ~ charged grant-related expenses to a university
         procurement card and then obtained reimbursement for the same expenses from an NSF @ant3.
         The PI was reimbursed a total of $4,436.34 for travel and unallowable purchases.

         NSFIOIG made written inquiries to the university to determine what steps had been taken to
         ensure that active NSF grants and other federal funds were free of mismanagement and other
         irregularities by the PI. Additionally, NSFIOIG requested documentation to show that the,
         university had restored the misappropriated funds back to the NSF account. The University
         provided all requested documentation.

         OIG proposed debarment to the Office of the Director for a period of twenty-seven (27) months.
         After reviewing the PI'S response to the proposed debarment, our office reconsidered its debarment
         recommendation and instead proposed the PI would submit to our office financial certifications (via
         the Authorized Institutional Representative (AOR)) until 3 1 December 2007.

         Our recommendation was approved by the Deputy Director of the National Science ~oundation~.
         Accordingly, this case is closed.




          ' footnote redacted
          ' footnote redacted
          3
              footnote redacted
              footnote redacted




NSF OIG Form 2 (1 1/02)
